fs
I

@QCKLE

: E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com
Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-915

UNICOLORS, INC.,
Petitioner,
v.
H&M HENNES & MAURITZ, L.P.,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE CALIFORNIA FASHION ASSOCIATION IN SUPPORT OF RESPONDENT in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 7796 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 28th day of September, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska
fen Nr oot Keone. 9. Shoo OQudia-h, Glily
Notary Public

‘My Comm. Exp. September 5, 2023
Affiant 41494

 
